                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT/MEMORANDUMI
                                                                                                   \



                                                                                                        I



 Case Number: I08010003                                                                        Page 1 of 1

               \




         Our office received an allegation that a person1 plagiarized an NSF-supported thesis2 and posted
         the plagiarized thesis on his ~ e b s i t e .We
                                                      ~ reviewed the two theses and concluded that there is no
         connection to NSF programs or operations. Therefore, this case is closed.




NSF 01G Form 2 (1 1/02)
